t

IN THE
SUPREME COURT OF THE UNITED STATES

H n n r. n

l
v..

Scott P. Roeder,

\

L. \ - Lj

Individually and as Next Friend of Unborn and Partially Born
Individuals under Sentence of Death,
PETITIONER,
V.

FILED
DEC 0 7 2020

STATE OF KANSAS,
RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE KANSAS COURT OF APPEALS

PETITION FOR A WRIT OF CERTIORARI

Mr. Scott P. Roeder #65192
Hutchinson Correctional Facility
P.O. Box 1568
Hutchinson, KS 67504-1568
Pro Se and as Next Friend

, \ [_.

. *
1

CAPITAL CASE
QUESTIONS PRESENTED
1. Whether the notion of overturning Roe v. Wade, 410 U.S. 113 (1973), includes
other possibilities besides leaving abortion up to the states?
2. Whether the prospect of new technology provides encouragement to renew
inquiry into the legality of abortion?
3. Whether the unborn and partially born should be granted a stay of execution
of sentence of death?
4. Whether Roeder was denied the twin rights of counsel and being present at a
critical proceeding?
5. Whether but for ineffective assistance by trial and appellate counsel under
Strickland, Roeder’s convictions would not have been upheld?
6. Whether the pattern of legal indifference shown for Roeder’s rights by courts
below is sufficient to invoke an exercise of this Court’s supervisory power?
7. Whether the Kansas Court of Appeals should have considered for the first
time on appeal the suggestion of trial counsel’s ineffectiveness for agreeing
that the public need not be present during parts of jury selection?
8. Whether the Kansas Court of Appeals should have filed the pro se
supplemental reply brief which was timely lodged in response to the state’s
brief?
9. Whether at least when counsel is court-appointed there is a right to effective
or at least non-incompetent assistance on collateral review?

■1

n
10. Whether to be legally recognized as persons in the whole sense under the
United States Constitution and the Kansas Constitution it suffices to
establish the purely secular suggestion of personhood for the unborn and
partially born?

,1
111

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

RELATED CASES
State Collateral Review
Trial court: Roeder v. State, No. 2017-CV-2373. 18th Judicial District Court,
Sedgwick County, Kansas. Judgment entered November 1, 2017 (reconsideration
denied November 28, 2017).
Appeal: Roeder v. State, No. 119,503. Kansas Court of Appeals. Judgment
entered July 19, 2019 (rehearing denied August 21, 2019; petition for review and
pro se supplemental petition for review denied September 29, 2020).
Federal Collateral Review
Trial court: Roeder v. Schnurr, No. 20-CV-3275. U.S. District Court for the
District of Kansas! Filed November 4, 2020 (case pending).
Criminal Proceedings
Trial court: State v. Roeder, No. 2009-CR-1462. 18th Judicial District Court,
Sedgwick County, Kansas. Journal entry of resentencing after remand entered
December 8, 2016.
Direct appeal: State u. Roeder, No. 104,520. Kansas Supreme Court.
Judgment entered October 24, 2014.
U.S. Supreme Court: Roeder v. Kansas, 575 U.S.

(2015) (No. 14-8767).

U.S. Supreme Court. Certiorari denied May 18, 2015 (rehearing denied July 20,

.J
IV

2015; Appl. No. 14A1166 denied by Justice Sotomayor May 12, 2015; Appl. No.
14A1225 denied by Justice Sotomayor June 4, 2015, then refiled and submitted to
Justice Alito and denied by the Court July 20, 2015).
Other Proceedings
I.
A case was filed pro se which was not treated as a motion attacking sentence
due to prematurity of the filing. The case history is listed here, however, to err on
the side of caution.
Trial court: In the Matter of Scott P. Roeder, No. 2010-CV-882. 18th Judicial
District Court, Sedgwick County, Kansas. Judgment entered June 4, 2010.
Appeal: In the Matter of Scott P. Roeder, No. 104,687. Kansas Court of
Appeals. Judgment entered November 23, 2010 (rehearing denied January 13, 2011;
petition for review denied December 19, 2011).
U.S. Supreme Court: Roeder v. Kansas, 568 U.S.

(2012) (No. 11-

10468). U.S. Supreme Court. Certiorari denied October 1, 2012 (rehearing denied
December 3, 2012; Appl. No. 12A192 denied by Justice Sotomayor August 24, 2012,
then refiled and submitted to the Chief Justice and denied as moot October 1, 2012;
Appl. No. 12A525 denied by Justice Sotomayor November 29, 2012).
II.
A habeas corpus case was filed pro se on the original jurisdiction of the
Kansas Supreme Court as next friend of unborn and partially born individuals
under sentence of death. On petition for certiorari, the Clerk of this Court refused to

V

file a timely application for a stay of execution of sentence of death for unborn and
partially born individuals, stating that only an attorney can seek the stay on behalf
of a third party, which is contrary to a long history of precedents. See Califorrniaa
v. Clinton, 517 U.S. 1204 (1996) (No. 95-1556), Appl. No. A825; Roeder v. Kansas,
568 U.S.

(2012) (No. 11-10468), Appl. Nos. 12A192 and 12A525; Grady v.

United States, 574 U.S.

(2014) (No. 13-10717), Appl. Nos. 14A219 and 14A553;

and, Roeder v. Kansas, 575 U.S.

(2015) (No. 14-8767), Appl. Nos. 14A1166 and

14A1225.
Trial Court: Roeder v. Schmidt, No. 118,601. Kansas Supreme Court.
Judgment entered December 20, 2017.
U.S. Supreme Court: Roeder v. Schmidt, 584 U.S.

(2018) (No. 17-

1407). U.S. Supreme Court. Certiorari denied June 11, 2018 (rehearing denied
August 6, 2018).

VI

TABLE OF CONTENTS
Page
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

7

REQUEST FOR GUARDIAN AD LITEM

28

REQUEST FOR CERTIFICATES OF INNOCENCE

28

CONCLUSION

28

INDEX TO APPENDICES
APPENDIX A

Judgment of Kansas Court of Appeals

APPENDIX B

Order of Kansas Court of Appeals Denying Rehearing

APPENDIX C

Judgment of Trial Court

APPENDIX D

Order of Trial Court Denying Reconsideration

APPENDIX E

Order of Kansas Supreme Court Denying Review

APPENDIX F

Order of Kansas Court of Appeals Denying Motion to File

APPENDIX G

Order of Kansas Court of Appeals Denying Reconsideration

APPENDIX H

Order of Kansas Supreme Court Denying Review (Interlocutory)

APPENDIX I

Supreme Court Rule 14(g)(i) Appendix

VI1

TABLE OF AUTHORITIES
Page
CASES
Baker v. State, No. 100,501 (Kan. S. Ct. 2013)

5

Bolling v. Sharpe, 347 U.S. 497 (1954)

7

Dred Scott v. Sandford, 19 How. 393 (1857)

7-9

Gee v. Planned Parenthood, 586 U.S.

4

(2018)

Gonzales v. Carhart, 550 U.S. 124 (2007)

4

Holtzman v. Schlesinger, 414 U.S. 1316 (1972)

11, 20

Johnson v. Zerbst, 304 U.S. 458 (1938)

11

Jones v. Cunningham, 371 U.S. 236 (1963)

10-11

Mohamad v. Palestinian Authority, 566 U.S. 449 (2012)

26, 28

Mullane v. Cent. Hanover Bank & Trust Co., 339 U.S. 306 (1950)

12, 21

Pack v. State, No. 118,581, 2019 WL 325140 (Kan. Ct. App. 2019)

23

Planned Parenthood v. Casey, 505 U.S. 833 (1992)

8-10

Powell v. Alabama, 287 U.S. 45 (1932)

11

Roe v. Wade, 410 U.S. 113 (1973)

7-11, 26-28

Sola-Morales v. State, 300 Kan. 875 (2014)

19

State v. Calderon, 270 Kan. 241 (2000)

12-13

State v. Carver, 32 Kan. App. 2d 1070 (Kan. Ct. App. 2004)

12-14

State v. Gleason, 277 Kan. 624 (2004)

23

State v. Kelly, 298 Kan. 965 (2014)

18

4

vm
State v. Murray, 302 Kan. 478 (2015)

23

State v. Pewenofkit, 307 Kan. 730 (2018)

23

State v. Sprague, 303 Kan. 418 (2015)

23 ,

Strickland u. Washington, 466 U.S. 668 (1984)

14-15, 22-23

United States u. Mosquera, 816 F.Supp. 168 (E.D.N.Y. 1993)

...

12

United States v. Vuitch, 402 U.S. 62 (1971)

8

Whitmore v. Arkansas, 495 U.S. 149 (1990)

12, 25

STATUTES AND RULES
28 U.S.C. § 1257(a)

2

28 U.S.C. § 1651

11

28 U.S.C. § 2101(f)

11

K.S.A. 22-2802(1)

3, 12

K.S.A. 22-3608(c)

5

K.S.A. 22-4501

20

K.S.A. 60-1507

passim

K.S.A. 60-1507(b)

3, 19

Kan. Const.

24

Kan. Const. Bill of Rights § 9

3, 12-13

Kansas Court Rule 6.02(a)(5) (2013 Kan. Ct. R. Annot. 39)

23

Supreme Court Rule 11

25

Supreme Court Rule 14(g)(i)

6

U.S. Const.

24

IX

U.S. Const. Amend I

2, 24, 27

U.S. Const. Amend. V

2, 7, 11-14, 21

U.S. Const. Amend. VI

2, 11, 13-14

U.S. Const. Amend. VIII

2, 11

U.S. Const. Amend. XIV § 1

passim

OTHER
Page, S., “Read the full transcript of vice presidential debate
between Mike Pence and Kamala Harris,” USA Today, October
8, 2020

7

Sacred Congregation for the Doctrine of the Faith, “Declaration on
Procured Abortion,” November 18, 1974

27

The American Presidency Project (University of California Santa
Barbara), “Attorney General nominee John Ashcroft's Senate
confirmation hearing (day two),” January 17, 2001

3-4

U.S. Patent No. 10,245,075 (Califorrniaa), “Nondestructive means
of ectopic pregnancy management,” April 2, 2019

10

U.S. Justice Department Memorandum of July 16, 2010,
“Applicability of Federal Criminal Laws and the Constitution to
Contemplated Lethal Operations Against Shaykh Anwar alAulaqi,” a.k.a. Barron’s Memo (declassified and first made
public June 23, 2014)

15

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully requests that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
The opinion of the Kansas Court of Appeals, which is highest state court to
review the merits, appears at Appendix A to the petition and is unpublished.
Its order denying rehearing appears at Appendix B.
The opinion of the trial court, the 18th Judicial District Court, Sedgwick
County, Kansas, appears at Appendix C to the petition and is unpublished.
Its order denying reconsideration appears at Appendix D.
The order of the Kansas Supreme Court denying a petition for review and
denying a pro se supplemental petition for review appears at Appendix E.
JURISDICTION
The date on which the Kansas Court of Appeals decided this case was July
19, 2019. A copy of that decision appears at Appendix A.
A timely motion for rehearing was thereafter denied on August 21, 2019, and
a copy of the order denying rehearing appears at Appendix B.
A timely petition for review and a timely pro se supplemental petition for
review were denied on September 29, 2020, and a copy of the order denying the

1

petition for review and denying the pro se supplemental petition for review appears
at Appendix E.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This petition involves the following constitutional and statutory provisions,
which are set forth in relevant part as follows:
U.S. Const. Amend I: “Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise thereof; •*

* * *”

U.S. Const. Amend. V: “No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or indictment of a grand jury,
except in cases arising in the land or naval forces, or in the militia, when in actual
service in time of war or public danger;
property, without due process of law;

ie ic *

nor be deprived of life, liberty, or

* * * *”

U.S. Const. Amend. VI: “In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an impartial jury of the state and
district wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature and cause of
the accusation; to be confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the assistance of counsel
for his defense.”
U.S. Const. Amend. VIII:

“* * *

nor cruel and unusual punishments

inflicted.”

2

U.S. Const. Amend. XIV § 1: «* * * nor shall any state deprive any person of
life, liberty, or property, without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.”
Kan. Const. Bill of Rights § 9: “Bail; fines; cruel and unusual punishment.
All persons shall be bailable by sufficient sureties except for capital offenses, where
proof is evident or the presumption great. Excessive bail shall not be required, nor
excessive fines imposed, nor cruel or unusual punishment inflicted.”
Kansas Statutes Annotated (K.S.A.) 22-2802(1): “Any person charged
with a crime shall, at the person’s first appearance before a magistrate, be ordered
released pending preliminary examination or trial upon the execution of an
appearance bond in an amount specified by the magistrate and sufficient to assure
the appearance of such person before the magistrate when ordered and to assure
the public safety. * * *
K.S.A. 60-1507(b): “Hearing and judgment. Unless the motion and the files
and records of the case conclusively show that the prisoner is entitled to no relief,
the court shall cause notice thereof to be served upon the county attorney, grant a
prompt hearing thereon, determine the issues and make findings of fact and
conclusions of law with respect thereto.

* * * *”

STATEMENT OF THE CASE
As evidenced by the transcript of the second day of his Senate confirmation
hearing, U.S. Attorney General designate John Ashcroft famously deferred to the
mantra of the American attorney when asked by U.S. Senator Dianne Feinstein if

3

he would pursue due process of law on behalf of the unborn. Responding in the
negative, Ashcroft pledged instead to be mindful of his “currency” with this Court in
deference to what “[t]he Supreme Court has signaled very clearly it doesn't want to
deal with” or is “unwilling to deal with”; to do otherwise, he explained, is “a losing
proposition” and “devalues” an attorney’s ability “to succeed on other issues” before
the Court. Rather than trying to rub due process of law in the face of the presiding
court, currency-minded American attorneys—ever-mindful of their social, political,
and financial currency—look instead to what the presiding court has “signaled” it
wants to deal with or is willing to deal with. As a consequence, true to his pledge,
rather than pursing the most basic thing of due process, U.S. Attorney General
John Ashcroft failed to call the medical examiner to testify as to child homicide in
the partial-birth case of Gonzales u. Carhaxt, 550 U.S. 124 (2007). Instead, to please
the Court, he limited himself to other latitudes.
Even cases which only touch upon the abortion issue tangentially are still
badly disadvantaged before this Court. See Gee v. Planned Parenthood, 586 U.S.
(2018) (Thomas, J., dissenting). It would therefore be naive to introduce the
statement of this case without an awareness of the uphill battle being faced by
petitioner in his quest to secure the right to due process of law for himself and for
unborn and partially born individuals under sentence of death.
Directly related cases are listed under Related Cases, supra.
After a jury trial in which he was denied an affirmative defense, petitioner
Scott P. Roeder was convicted of first-degree murder for fatally shooting Dr. George

4

Tiller to prevent him from performing scheduled abortions. Roeder was also
convicted on two counts of aggravated assault for threatening to shoot two men if
they did not refrain from impeding his departure from the scene of the shooting. His
convictions were affirmed on direct appeal by the Kansas Supreme Court, and he
was resentenced after remand to life in prison (with parole eligibility in 25 years)
plus 24 months. This Court denied certiorari, rehearing, and two applications for a
stay of execution of sentence of death for unborn and partially born individuals.
Roeder does not dispute that he fatally shot Tiller. The shooting occurred on
May 31, 2009 and he was arrested the same day. The mandate of the Kansas
Supreme Court on direct appeal issued on November 18, 2014. He was resentenced
after remand on November 23, 2016. He did not appeal from the resentencing. The
judgment of the trial court became final after the 14-day period under K.S.A. 223608(c) expired for appealing the sentence after remand which was entered on
December 8, 2016. See Baker v. State, No. 100,501 (Kan. S. Ct. 2013). On October
16, 2017, Roeder filed a timely motion attacking his sentence, which the trial court
construed as a motion for postconviction relief under K.S.A. 60-1507.
In his motion, Roeder claimed (1) he was the victim of a pattern of deliberate
legal indifference, (2) he was denied the twin rights of being constitutionally present
at all critical stages of a criminal prosecution and being free to retain counsel of
choice, (3) he was denied effective assistance of counsel during the original
proceedings in the trial court, and (4) he was denied effective assistance of counsel
on direct appeal. Before the trial court ruled, Roeder also filed an emergency motion

5

for a stay of execution of sentence of death on behalf of unborn and partially born
individuals under sentence of death. The trial court summarily denied the motions
(Appendix C). Roeder filed a timely motion for reconsideration, which the trial court
also denied (Appendix D). Counsel was not appointed.
Roeder timely filed a notice of appeal and counsel was appointed to appeal
the dismissal of his motions to the Kansas Court of Appeals. This Court is alerted
that appointed counsel dismissed herself from briefing the stay of execution issue
without first obtaining leave from the Kansas Court of Appeals and without
conferring with Roeder in advance; the Kansas Court of Appeals did not address
counsel’s decision to dismiss herself from briefing the stay of execution issue. The
Kansas Court of Appeals affirmed the judgment of the trial court (Appendix A) and
denied a timely motion for rehearing (Appendix B). On September 29, 2020, the
Kansas Supreme Court denied a timely filed petition for review and denied a timely
filed pro se supplemental petition for review (Appendix E).
Petitioner respectfully requests that a writ of certiorari issue to review the
judgment of the Kansas Court of Appeals.
Petitioner believes that each of the federal questions raised in this petition
was timely and properly raised and that this Court has jurisdiction to review the
judgment on a writ of certiorari. Additional matter submitted in compliance with
Supreme Court Rule 14(g)(1) is set forth in Appendix I.
The statement of this case would not be complete without giving it a human
perspective: Tiller was killed on a Sunday over 11 years ago, which means those

6

scheduled to be executed by him the following Monday now have their teens to look
forward to, thanks to your petitioner who fought for their freedom.
REASONS FOR GRANTING THE WRIT
Whether the notion of overturning Roe v. Wade, 410 U.S. 113 (1973),
includes other possibilities besides leaving abortion up to the states?
In posing a question to Vice President Mike Pence during the 2020 Vice
Presidential Debate, moderator Susan Page of USA TODAY states: “A confirmation
[of Judge Amy Coney Barrett] would cement the [U.S. Supreme Court’s]
conservative majority, and make it likely open ... even to overturning the landmark
Roe v Wade ruling. Access to abortion would then be up to the states.”
Though even the conservatives on the Court have yet to consider it, the
notion of overturning Roe u. Wade, 410 U.S. 113 (1973), however, includes other
possibilities besides leaving abortion up to the states.
The fundamental proposition of Roe u. Wade is precisely the same as that of
Dred Scott v. Sandford, 19 How. 393, 407 (1857), namely, whether the beings in
question are “so far inferior” that they have no rights which others are “bound” to
respect. Rejecting this proposition leads to the Fourteenth Amendment’s concept of
due process based on equal protection, which in turn has reshaped the Fifth
Amendment’s concept of due process by reverse incorporation. See Bolling v.
Sharpe, 347 U.S. 497 (1954). But in Roe, like in Dred Scott before it, the Court did
the contrary by unanimously reaffirming this hateful proposition, holding that an
abortion is not “the termination of life entitled to Fourteenth Amendment

7

protection.” Roe, id. at 159. As Justice Stevens reflects some twenty years later:
“From this holding, there was no dissent, see id., at 173; indeed, no Member of the
Court has ever questioned this fundamental proposition.” Planned Parenthood v.
Casey, 505 U.S. 833, 913 (1992) (Stevens, J., concurring in part and dissenting in
part). Roe’s author Justice Blackmun similarly reflects that not only has this been
the unanimous view of the Court, but also that of the Republican Administration:
“No Member of this Court—nor for that matter, the Solicitor General, see Tr. of
Oral Arg. 42—has ever questioned our holding in Roe that an abortion is not ‘the
termination of life entitled to Fourteenth Amendment protection.’ 410 U. S., at 159.”
Casey, id. at 932 (Blackmun, J., concurring in part, concurring in the judgment in
part, and dissenting in part).1
Having affirmed the fundamental proposition of inequality, attention then
turns to a secondary question: Who, then, should have primary control over the
lives of those deemed so far inferior that they have no rights which others are bound
to respect? Possibilities include the Congress, the states, and private individuals. In
Dred Scott, the Court gave primary control to the states. But a more radical version
of Dred Scott would have left it to the choice of private individuals. Had this been
the case, lobbying for the Court to overturn the more radical version in favor of

1 Also noted is United States v. Vuitch, 402 U.S. 62 (1971), in which the decision of
the Republican Administration not to invoke the protections of the Fourteenth
Amendment on behalf of the unborn allowed that case to promptly serve as the
introit to Roe v. Wade. See Roe, id. at 159 (“Indeed, our decision in United States v.
Vuitch, 402 U. S. 62 (1971), inferentially is to the same effect, for we there would
not have indulged in statutory interpretation favorable to abortion in specified
circumstances if the necessary consequence was the termination of life entitled to
Fourteenth Amendment protection.”)
8

going back to the states’ rights version upheld in Dred Scott would hardly be
considered an anti-slavery or pro-freedom movement by today’s standards. By
analogy, lobbying for the Court to revise its answer to the secondary question of Roe
v. Wade in favor of a state’s rights should hardly be considered an anti-abortion or
pro-life movement. Instead, the Court should overturn Roe v. Wade by overturning
Roe’s fundamental proposition in favor of equality.
Whether the prospect of new technology provides encouragement to renew
inquiry into the legality of abortion?
Using a rigid trimester framework, Roe relied on the point of extrauterine
viability as the fulcrum which shifts between the interests of the state versus those
of the pregnant woman. Id., at 147-165. In contrast, Casey, id. at 860, relied on the
same fulcrum concept as Roe, but introduced an open-ended allowance for the
fulcrum to slide toward the state in tandem with new advancements in technology:
[W]hether viability occurs at approximately 28 weeks, as was usual at the
time of Roe, at 23 to 24 weeks, as it sometimes does today, or at some
moment even slightly earlier in pregnancy, as it may if fetal respiratory
capacity can somehow be enhanced in the future ... the attainment of
viability may continue to serve as the critical fact, just as it has done since
Roe was decided....
By introducing a sliding scale for extrauterine viability, the Court would
appear to have unwittingly announced a natural terminus to Roe. For it stands to
reason that if advancements in technology can cause the fulcrum to slide entirely
toward the state, then Roe’s central holding has become obsolete and must be
revisited.

9

To be clear on this, the Court in Casey incorrectly assumed that
enhancements in fetal respiratory capacity can only come via the pulmonary route.
As a consequence, the Court wrongly anticipated that the terminus of the fulcrum’s
advancement would be limited to “some moment slightly earlier in pregnancy [than
23 weeks],” based on the well-known timeline of pulmonary development.
What the Court in Casey failed to appreciate (no doubt due to inadequate
counsel from the medical profession), was that the baby’s respiratory capacity can
alternatively be enhanced via what is now being called the “alluvial” route as
opposed to the pulmonary route, meaning, using liquid-phase ventilation of the egg
or gestational sac as opposed to gas-phase ventilation of the lungs.
Advantageously, new technology for alluvial incubation purports the capacity
to enhance the baby’s respiratory capacity all the way down to conception. See U.S.
Patent No. 10,245,075 (Califorrniaa), “Nondestructive means of ectopic pregnancy
management,” April 2, 2019. Hence, the viability fulcrum is no longer restrained as
the Court had once assumed in Casey. As a consequence, Casey’s modification of the
central holding of Roe is doomed for obsolesce. The Court should therefore accept
the prospect of this new technology as providing encouragement to renew its inquiry
into the legality of abortion.
Whether the unborn and partially born should be granted a stay of
execution of sentence of death?
Petitioner contends that the death penalty is being freakishly and arbitrarily
applied in the United States to execute unborn and partially born individuals in

10

violation of the Eighth Amendment. Because abortion policy derives its asserted
legality from judicial acts and is conducted under the protection of governmental
powers, those condemned to death by abortion are under sentence of death. For
purposes of a habeas corpus proceeding, one to be taken to an abortion clinic for
lethal execution is a prisoner in custody. Because abortion policy is a federal policy,
the custody is federal. See Jones v. Cunningham, 371 U.S. 236 (1963). Moreover, a
formal death warrant is not required for this to be treated as a capital case. See
Holtzman v. Schlesinger, 414 U.S. 1316 (1972). This Court has jurisdiction under 28
U.S.C. §§ 1651 and 2101(f) to grant the requested stay of execution of sentence of
death on behalf of unborn and partially born individuals.
In cases such as Roe in which the unborn and partially born have been
summarily condemned to death by abortion, they have never been represented by
counsel. Instead, they have been treated as beings so far inferior that they have no
rights which others are bound to respect, including the right to counsel in a capital
case guaranteed by the Sixth Amendment and the Due Process clauses of the Fifth
and Fourteenth Amendments. Such treatment results in a circular argument, as if
to say that those who do not have the right to counsel do not have the right to life
either. In a capital case, the absence of counsel for the defense provides sufficient
grounds for granting the requested stay of lethal execution. See Powell v. Alabama,
287 U.S. 45 (1932); Johnson v. Zerbst, 304 U.S. 458 (1938).
Petitioner asserts dual standing as an individual and next friend to seek the
stay. He has individual standing to prosecute the stay because granting it would

11

help his habeas corpus cause by legally affirming the value of lives like the ones he
saved; and, he also has standing as next friend because a prisoner is not prevented
from serving as a relator on behalf of one condemned. See Whitmore u. Arkansas,
495 U.S. 149 (1990). The Court should therefore grant the requested stay.
Whether Roeder was denied the twin rights of counsel and being present
at a critical proceeding?
In Kansas, denial of the twin rights of counsel and being present at a critical
proceeding of a criminal prosecution is reversible error in which prejudice need not
be shown. See State v. Carver, 32 Kan. App. 2d 1070 (Kan. Ct. App. 2004). In
Kansas, to be ‘present’ requires that a defendant be more than just physically
present; it assumes that a defendant will be informed about the proceedings. See
State v. Calderon, 270 Kan. 241, 245, 13 P.3d 871 (2000) (citing United States v.
Mosquera, 816 F.Supp. 168, 172 (E.D.N.Y. 1993)). Moreover, this Court has
identified notice and an opportunity to be heard as the hallmarks of procedural due
process, which is protected by the Due Process clause of the Fifth Amendment. See
Mullane v. Cent. Hanover Bank & Trust Co., 339 U.S. 306, 313 (1950). The Due
Process clause of the Fourteenth Amendment is similarly invoked.
The right to bail is guaranteed by Kansas Constitution Bill of Rights § 9 (“All
persons shall be bailable by sufficient sureties except for capital offenses....”) The
Kansas legislature interprets the right to bail as commencing at the time of the first
appearance before the magistrate under K.S.A. 22-2802(1) (“Any person charged
with a crime shall [emphasis added], at the person’s first appearance before a

12

magistrate, be ordered released pending preliminary examination upon the
execution of an appearance bond in an amount specified by the magistrate....”)
In the criminal proceeding, the magistrate judge denied Roeder bond at his
first appearance in absence of counsel. Because Roeder was not informed that his
first appearance would be used as a proceeding to deny bond, he was not
constitutionally ‘present’ at the first appearance. Being constitutionally entitled to
bond under Kansas Constitution Bill of Rights § 9, the proceeding to deny bond at
his first appearance rose to the level of a ‘critical’ proceeding. Having not been
appointed counsel for the first appearance, he was denied the twin rights of counsel
and being constitutionally present at a critical proceeding.
Under the Sixth Amendment, the right to the assistance of counsel for one's
defense is a fundamental right; a defendant's constitutional right to be present
during criminal proceedings stems from the Sixth Amendment right to confront
witnesses and the Fifth and Fourteenth Amendment due process right to attend the
critical stages of a criminal proceeding in which the defendant is not actually
confronting the witnesses or evidence against him or her. See Carver, supra;
Calderon, id. at 245.
Petitioner contends that because the first appearance, being first, cannot be
repeated, the proceeding to deny bond in absence of counsel is fatal to the state’s
case, such that not only should his convictions be vacated, but that the charges
against him should also be dismissed with prejudice; for this is the logical effect of
judicial contumacy for the state constitutional right to bail at a first proceeding in

13

which the twin rights are also denied. He also contends he suffered irreparable
harm from the event such as will not be erased simply by granting him a new trial,
given that the combination of being denied bond while appearing by two-way
communication on national television in jail clothes made him look like a terrorist
who was too dangerous to be let into the actual courtroom let alone out on bail even
despite what the state constitution says about bail.
The Kansas Court of Appeals states in its judgment (Appendix A, p. 9): “Even
if we construed his first court appearance to be a critical stage of the criminal
proceedings against him, Roeder does not allege, nor is there record evidence to
establish, that Roeder was prejudiced in any way.” Contrary to what that judgment
states, Roeder plainly alleged, and there is clear record evidence to establish, that
he was prejudiced. See Movant’s Brief in Support of Motion Attacking Sentence, pp.
8-15. Not only that, but under the standard of Carver, he need not show prejudice
anyway. Id., at 1083-1086. The Court should therefore vacate his convictions with
instructions to dismiss the charges against him with prejudice.
Whether but for ineffective assistance by trial and appellate counsel under
Strickland, Roeder’s convictions would not have been upheld?
In a criminal proceeding, a defendant has a Sixth Amendment right to the
effective assistance of counsel. See Strickland v. Washington, 466 U.S. 668 (1984).
He or she also has the right to have compulsory process for obtaining witnesses in
his or her favor under the Sixth Amendment and the Due Process clauses of the
Fifth and Fourteenth Amendments. Id., at 684-685.

14

The affirmative defense Roeder sought required him to show that he acted to
prevent an imminent legal harm or evil. Roeder would have made the requisite
showing, but for ineffective assistance. Because an abortion, like any other lethal
execution, is ‘imminent’ so long as it remains scheduled, appellate counsel was
ineffective under Strickland who arbitrarily conceded that six months out would not
be imminent, and who ignored Roeder’s written request for her to raise the U.S.
Justice Department’s own view of imminence as detailed in the Barron’s memo.2
Because homicide is always a ‘legal harm or evil,’ trial counsel was ineffective under
Strickland who failed to call the coroner as a defense witness to testify as to
whether performance of an abortion results in what must be ruled a homicide of the
offspring, being that the coroner is the competent authority to make such a
determination. But for counsels’ ineffectiveness, Roeder would not be imprisoned for
acting as he did to save offspring from the imminent legal harm or evil of their
scheduled executions. The Court should therefore vacate his convictions.
Whether the pattern of legal indifference shown for Roeder’s rights by
courts below is sufficient to invoke an exercise of this Court’s
supervisory power?
The American Civil Liberties Union (ACLU), despite its asserted mission of
advocating legal fairness, made an exception for Roeder’s case, by barging onto the
scene of the criminal proceedings mid-trial and lodging a paper styled as an amicus

2 See U.S. Justice Department Memorandum of July 16, 2010, “Applicability of
Federal Criminal Laws and the Constitution to Contemplated Lethal Operations
Against Shaykh Anwar al-Aulaqi,” a.k.a. Barron’s Memo (declassified and first
made public June 23, 2014).
15

brief, which presumed to spoon feed the trial court with legal theories adverse to the
defense, even though such a filing is not allowed by the trial court rules. On direct
appeal, the Kansas Supreme Court, as if inviting a spoon feeding of its own, filed an
amicus brief in support of the state by the ACLU et al., but refused to file any of the
seven amicus briefs which were lodged in support of Roeder. It also denied Roeder’s
pro se motion for permission to file a pro se response to any amicus briefs that might
be filed. This shows that even the ACLU supported a playing field which to Roeder’s
disadvantage was not level.
Legal indifference for Roeder’s rights has been shown all around. Police video
of his arrest posted on the internet shows that, as Roeder emerged from his vehicle,
law enforcement presumed his guilt by calling out argumentatively, “Where’s the
gun?” While in county jail, the names and addresses of those who contacted him in
custody were made public and he was subject to irregular mail scrutiny without
justification, as if to presume his guilt in a manner that might scare others from
rendering him assistance. He was made to look like a terrorist on national
television by denying him the state constitutional right to bail in a proceeding in
which the twin rights of counsel and being constitutionally present were also
denied. After being denied bail, the trial court disparaged the presumption of his
innocence as an excuse for setting excessive bail, by expressing doubt that he would
not “participate or enact any more violence....” The state’s attorney told the trial
court that a reasonable person would believe Roeder engaged in “alleged acts of
American terrorism.” Appointed trial counsel spoke to the Press on television

16

without Roeder’s authorization and in such a manner as to suggest disparagingly
that Roeder’s demeanor was a liability to the defense. The Kansas Department of
Corrections has generated an arm’s length list of disciplinary reports on him, which
serve to impugn his reputation and dignity.
On appeal on collateral review, the Kansas Court of Appeals states in its
judgment (Appendix A, p. 9): “Even if we construed his first court appearance to be
a critical stage of the criminal proceedings against him, Roeder does not allege, nor
is there record evidence to establish, that Roeder was prejudiced in any way.” The
Court is alerted that this statement is plainly contradicted by the Movant’s Brief in
Support of Motion Attacking Sentence, which states (p. 10):
Roeder contends that the combination of being denied bond while appearing
by two-way communication on national television in jail clothes made him
look like a terrorist who was too dangerous to be let into the actual courtroom
■let alone out on bail. Since this egregious harm to his constitutional rights
and the public’s perception of him will not simply be erased by a new trial,
his convictions must be reversed and the charges against him must be
dismissed with prejudice on all counts.
The widespread pattern of legal indifference shown for petitioner’s rights is
attributable to the involvement of abortion politics. Yet to maintain the legitimacy
of any legal system, politically-motivated indifference for a prisoner’s rights
requires a heightened level of legal scrutiny. A state prisoner’s rights are protected
from politically-motivated indifference by the Fourteenth Amendment. The pattern
of legal indifference shown for petitioner’s rights is so widespread and extensive
that it renders the result of his trial and direct appeal unreliable. The Court should
therefore exercise supervision and vacate his convictions.

17

Whether the Kansas Court of Appeals should have considered for the first
time on appeal the suggestion of trial counsel’s ineffectiveness for
agreeing that the public need not be present during parts of jury
selection?
Roeder raised the following claim for relief for the first time on appeal from
the summary dismissal of his motion for collateral review, as stated in the Pro Se
Supplemental Brief of Appellant (p. 9):
New Matter
Because Roeder’s Motion Attacking Sentence was dismissed at the
pleading stages, he raises for the first time on appeal new matter consistent
with the original pleading which was not presented to the district court but
which could have been added by amendment. Namely, he believes trial
counsel was ineffective who agreed with the district court that the public
should not be present during parts of the jury selection. Noted is that Roeder
raised this issue in writing to his court-appointed attorney in the present
appeal, but she did not raise it in his attorney-filed brief.
The Court is therefore asked to consider de novo whether the district
court’s bar on public proceedings was reversible error.
In response, the Kansas Court of Appeals, despite having granted de novo
review, states in its judgment (Appendix A, pp. 4-5):
Roeder also raises a new issue for the first time on appeal. As a general rule,
issues not raised before the trial court cannot be raised on appeal. See State
v. Kelly, 298 Kan. 965, 971, 318 P.3d 987 (2014). Roeder does not argue any of
the recognized exceptions to this rule. Therefore, we will not address the new
issue.
The reliance of the Kansas Court of Appeals on Kelly is misplaced because
Kelly was a direct appeal, unlike the present case which is an appeal on collateral
review. The distinction is important, given that the Kansas legislature gives the
courts specific directions to follow on collateral review, namely, that relief on

18

collateral review is not to be denied under K.S.A. 60-1507(b) “[ujnless the motion
and the files and records of the case conclusively show that the prisoner is entitled
to no relief...
In granting de novo review, the Kansas Court of Appeals admittedly assumes
this responsibility of the trial court (Appendix A, p. 4):
When the district court summarily denies a K.S.A. 2018 Supp. 60-1507
motion, an appellate court conducts de novo review to determine whether the
motion, files, and records of the case conclusively establish that the movant
has no right to relief. Sola-Morales, 300 Kan. at 881.
Hence, notwithstanding what may be required in other appellate proceedings, on
collateral review Roeder need only point out or draw attention to some aspect of
“the motion and the files and records of the case” in order for the relevant matter in
question to be eligible for appellate consideration on de novo review, in which case
the contrary treatment by the Kansas Court of Appeals is violative of the Due
Process clause of the Fourteenth Amendment. The Court should therefore reverse
the judgment of the Kansas Court of Appeals.
Whether the Kansas Court of Appeals should have filed the pro se
supplemental reply brief which was timely lodged in response to the
state’s brief?
On collateral review, appellate counsel was appointed, but not trial counsel.
The trial court addressed the issue of a stay of execution of sentence of death for the
unborn and partially born. Appendices C & D. On appeal, appointed counsel
dismissed herself from briefing the stay of execution issue, for reasons stated in the
Brief of Appellant (p. 4):
19

Counsel believes that pursuit of Roeder's motion on behalf of unnamed
third persons is outside the scope of her appointment to represent him under
the Indigent Defense Services Act, K.S.A. 22-4501 et seq., which provides for
the appointment of counsel to represent indigent persons accused of crimes,
indigent persons convicted of crimes on direct appeal, and indigent persons in
custody under a sentence of imprisonment upon conviction of a felony on a
petition for writ of habeas corpus or a motion attacking sentence under
K.S.A. 60-1507 and any related appeals. Counsel has so advised Roeder in a
letter sent with this Brief.
Counsel’s argument that “unnamed” persons are not entitled to counsel in a
capital case is contrary to past experience with capital cases. For example, Justice
Douglas found the opposite in Holtzman v. Schlesinger, id. at 1317:
But this case in its stark realities involves the grim consequences of a capital
case. The classic capital case is whether Mr. Lew, Mr. Low, or Mr. Lucas
should die. The present case involves whether Mr. X (an unknown person or
persons) should die. No one knows who they are. ... The upshot is that we
know that someone is about to die.
Though appointed counsel clearly lacked the discipline to face the stark realities of
this case, the grim consequences of a capital case are nonetheless similarly involved
in the lethal execution of unborn and partially born individuals: The upshot is that
we know that someone is about to die.
The Court is alerted that appointed counsel dismissed herself from briefing
the stay of execution issue without leave from the Kansas Court of Appeals and
without conferring with Roeder in advance. Acting pro se and as next friend, Roeder
addressed the stay of execution issue in the Pro Se Supplemental Brief of Appellant,
which was filed upon motion. The state addressed the stay of execution issue in the
Brief of Appellee. Appointed counsel filed the Reply Brief of Appellant, but again
did not address the stay of execution issue.

20

Acting pro se and as next friend, Roeder timely lodged a Pro Se Supplemental
Reply Brief of Appellant which specifically addressed the position of the Brief of
Appellee on the stay of execution issue, but the motion to file submitted therewith
was denied as was reconsideration. Appendices F & G. A Pro Se Petition for Review
(interlocutory) was denied by the Kansas Supreme Court. Appendix H. The Kansas
Court of Appeals addressed the stay of execution issue in its judgment (Appendix
A), but did not comment on the decision of appointed counsel to dismiss herself from
briefing it without leave and without conferring with Roeder in advance.
By refusing to file the Pro Se Supplemental Reply Brief of Appellant, the
Kansas Court of Appeals abused discretion by forcing Roeder to default on making
any reply to the position of the Brief of Appellee on the stay of execution issue, given
that appointed counsel had already dismissed herself without leave from addressing
the stay of execution issue. Put another way, in the Brief of Appellee the state first
gave ‘notice’ of its position on the stay of execution issue, but Roeder was effectively
denied ‘an opportunity to respond.’ However, notice and an opportunity to respond
are the hallmarks of procedural due process, which is protected by the Due Process
clause of the Fifth Amendment. See Mullane v. Cent. Hanover Bank & Trust Co.
supra. The Due Process clause of the Fourteenth Amendment is similarly invoked.
The Court should therefore reverse the judgment of the Kansas Court of Appeals.
At least when counsel is court-appointed, whether there is a right to
effective or at least non-incompetent assistance on collateral review?

21

In Strickland, id. at 669, the Court held that “[a] court must indulge a strong
presumption that counsel's conduct falls within the wide range of reasonable
professional assistance.” Whether or not such an indulgence is rational or merely
self-serving, however, has hardly been tested. Claims of ineffective assistance at
trial are strategically reserved for collateral review to preserve the advantage of an
evidentiary hearing; claims that the assistance of appellate counsel was ineffective
have no other option than to await collateral review. The vast majority of motions or
petitions seeking collateral review are prosecuted by the prisoner pro se. But even
in those cases where the prisoner is represented on collateral review by private or
court-appointed counsel, this Court has not as yet recognized any constitutional
right to effective assistance on collateral review. Hence, it is fair to say that
Strickland’s indulgence has hardly been tested, given that prisoners have as yet no
recognized right to challenge that indulgence (or the likelihood of its presumptions)
with the aid of effective assistance on collateral review.
Put another way, if the prisoner was cheated out of effective assistance at
trial or on direct appeal, he or she has as yet no recognized guarantee of effective
assistance to prove it on collateral review. The case at hand presents an extreme
example of the problem: The Kansas Appellate Courts appear to have made quite a
racket out of appointing incompetent counsel on collateral review.
In the Brief of Appellee, the state evaluates the performance of appointed
appellate counsel on collateral review as follows (pp. 4-5):
In her brief: movant's appellate counsel summarizes the ineffective
assistance of counsel claims raised in movant’s 1507 motion. (Appellant's
22

Brief, 8-10.) However, counsel engages in no independent analysis of these
claims, does not explain how the district court erred, and does not even cite
the applicable ineffective assistance of counsel tests.
It is well settled that simply pressing a point without pertinent
authority, or without showing why it is sound despite a lack of supporting
authority, is akin to failing to brief an issue; where appellant fails to brief an
issue, that issue is waived or abandoned. See State v. Murray. 302 Kan. 478,
486, 353 P.3d 1158 (2015); State v. Gleason. 277 Kan. 624, 655, 88 P.3d 218
(2004). See also Rule 6.02(a)(5) (2013 Kan. Ct. R. Annot. 39) (appellant's brief
must include "the arguments and authorities relied on"). Similarly, a point
raised incidentally in a brief and not argued therein is also deemed
abandoned. State v. Sprague, 303 Kan. 418, 425, 362 P.3d 828 (2015).
Given counsel's failure to provide any support for the claim that the
district court erred, this court should not reach the merits of the underlying
ineffective assistance of counsel claims. See Pack v. State. No. 118,581, 2019
WL 325140 (Kan. App. 2019) (unpublished opinion).
Like the present case, the case of Pack v. State cited in the Brief of Appellee
was also an appeal on collateral review, in which the appellant Ronald K. Pack was
represented by appointed counsel Kristen B. Patty, who is the same attorney
appointed to represent Roeder in the present appeal.
In Pack, the Kansas Court of Appeals evaluates the performance of appointed
counsel as follows (id. at p. 3):
On appeal, Pack raises 20 claims of ineffective assistance of trial
counsel. However, except for references to the standard of review and the
Strickland ineffective assistance of counsel test, Pack cites no authority
suggesting the district court erred in denying his 60-1507 motion. Failure to
support a point with pertinent authority or show why it is sound despite a
lack of supporting authority or in the face of contrary authority is akin to
failing to brief the issue. State v. Pewenofkit, 307 Kan. 730, 731, 415 P.3d 398
(2018). Because Pack cites no authority and does not explain how the district
court erred, we find he has abandoned these issues.
Hence, it would have been known from Pack that appointed counsel Kristen
B. Patty would unlikely be competent to brief Roeder’s appeal. From this it is
evident that the effectiveness of counsel appointed in Kansas on collateral review
23

can be dependably incompetent, such that the appointment of counsel works to the
wrongful advantage of the state.
Even if the Court abstains in this instance from finding a right to effective
assistance on collateral review, the Court should nonetheless find no less than a
right to competent counsel whenever the state elects to appoint counsel. By analogy,
there is a First Amendment right to tell the truth or say nothing at all, but no right
to lie; hence, if the state elects to appoint counsel, counsel must be genuine, or at
least not incompetent, that is to say, not a lie. Hence, the Court should at least find
that to appoint counsel in name only in a state proceeding is violative of the Due
Process clause of the Fourteenth Amendment. The Court should therefore reverse
the judgment of the Kansas Court of Appeals.
Whether to be legally recognized as persons in the whole sense under the
United States Constitution and the Kansas Constitution it suffices to
establish the purely secular suggestion of personhood for the unborn
and partially born?
Within the scope of his own collateral review proceeding, Roeder filed at the
trial court an emergency motion for a stay of execution of sentence of death on
behalf of unborn and partially born individuals under sentence of death, in which he
purports to establish the suggestion of personhood on behalf of the,unborn and
partially born. See Emergency Motion for a Stay of Execution of Sentence of Death
pp. 11-15, “Establishment of the Suggestion of Personhood.” As the Kansas Court of

24

Appeals explains the purported relationship between the emergency motion and
Roeder’s cause (Appendix A, p-17):
Roeder contends that he established in his emergency motion the right
of unborn and partially born individuals to a stay of execution of sentence of
death under Kansas law. The district court ruled that Roeder could not use a
K.S.A. 60-1507 proceeding as a vehicle to file ancillary proceedings for
unborn or partially born individuals. Roeder responds that the emergency
motion was properly within the scope of his K.S.A. 60-1507 proceeding
because (1) the legal proof of personhood fell within the scope of what was
germane to establishing his own right to an evidentiary hearing on his K.S.A.
60-1507 motion and (2) lives urgently need to be saved from lethal execution
under Kansas law.
The Kansas Court of Appeals agreed with the trial court (Appendices C & D)
that the emergency motion was not properly within the scope of Roeder’s K.S.A. 601507 motion. See Appendix A, p. 18 (“The statute permits a prisoner to challenge
his or her sentence in the court which imposed the sentence, not to challenge
anyone else's sentence. It does not matter if the issues involved are similar.”)
However, not only does that opinion run counter to Whitmore v. Arkansas, supra, it
also contradicts, in part, the opinion of the trial court in denying reconsideration.
See Appendix D, p. 2 (“If Petitioner seeks to advocate on behalf of the partially born
or unborn individuals within this Court's venue and jurisdiction, Petitioner should
pursue that remedy in a separate action.”)
This Court recognizes the equitable principle that a case of such imperative
public importance can present itself as to justify deviation from usual practice and
require immediate determination. See Supreme Court Rule 11. With similar
reasoning, Roeder, being in possession of legal proof of the suggestion of personhood

25

on behalf of the unborn and partially born, sought to present such proof in the form
of an emergency motion. Petitioner presents such proof here, as below.
Establishment of the Suggestion of Personhood
Roe refused to promise that abortion, once legalized, would be incapable of
interruption in the ordinary course of judicial affairs. Quite the contrary, having left
the suggestion of personhood open to further consideration, the Court forewarned,
id. at 156-157, “If this suggestion of personhood is established ... the fetus’ right to
life would then be guaranteed specifically by the [Fourteenth] Amendment.” It
follows that the legal authority to stay the execution of those sentenced to death by
abortion has been preserved by the Court.
It goes without saying that the result of human procreation is a human
individual. By excluding the pregnant state from the meaning of procreation, Roe
defined procreation as being complete at conception. See id., at 159 (“The situation
[presented by the pregnant woman] therefore is inherently different from ...
procreation....”) Put another way, Roe narrowly defined procreation to include only
the act of fertilizing and not the pregnant state. Hence, because procreation under
Roe is complete once pregnancy begins, it follows that a human individual, as the
logical result of human procreation, is present once pregnancy begins.
In Mohamad v. Palestinian Authority, 566 U.S. 449, 451-456 (2012), the
Court found that the word “individual” refers unmistakably to a “natural person.”
See id., at 454. Hence, in view of Roe’s distinction between pregnancy and
procreation, it follows from Mohamad that once pregnancy begins, viz. once

26

procreation is complete, then a human individual, viz. a natural person, is present
as the result of procreation.
There are, of course, religious or philosophical concepts of the person-which
are perhaps more sublime than that of a natural person, such as that of a spiritual
person, and some debate inevitably remains in this area. For example, the official
belief of the Catholic Church is that while at least human (natural) life begins
indisputably at conception, nonetheless human (spiritual) life requires the natural
life to be infused with an immortal soul (Sacred Congregation for the Doctrine of the
Faith, “Declaration on Procured Abortion,” November 18, 1974, n. 19):3
This declaration expressly leaves aside the question of the moment when the
spiritual soul is infused. There is not a unanimous tradition on this point and
authors are as yet in disagreement. For some it dates from the first instant;
for others it could not at least precede nidation. It is not within the
competence of science to decide between these views, because the existence of
an immortal soul is not a question in its field. It is a philosophical problem
from which our moral affirmation remains independent for two reasons: (1)
supposing a belated animation, there is still nothing less than a human life,
preparing for and calling for a soul in which the nature received from parents
is completed, (2) on the other hand, it suffices that this presence of the soul
be probable (and one can never prove the contrary) in order that the taking of
life involve accepting the risk of killing a man, not only waiting for, but
already in possession of his soul.
Yet despite the great esteem which is owed to religion and philosophy, it
would nonetheless violate the separation of church and state embodied in the Free
Exercise and Establishment clauses of the First Amendment for the Court to
require consensus on the spiritual person as a prerequisite to legal recognition of
the natural person. It is therefore germane to our Nation’s secular province for the

3 The Declaration would appear to correct the Court’s apparent misapprehension of the official belief of the Catholic
Church as set forth by the Court in Roe, id. at 160-161.

27

Court to uphold plenary constitutional respect for every natural person at every
moment of life, regardless of religious or philosophical debates.
Hence, because applying Mohamad to Roe logically establishes the purely
secular suggestion of personhood at conception, and because new technology, as
stated above, serves to remove the obstacle of stare decisis, the Court should
therefore grant certiorari to decide this case as a matter of imperative public
importance and reverse the judgment of the Kansas Court of Appeals.
REQUEST FOR GUARDIAN AD LITEM
The Court is requested to appoint a guardian ad litem to represent unborn
and partially born individuals under sentence of death.
REQUEST FOR CERTIFICATES OF INNOCENCE
The Court is requested to issue certificates of innocence for petitioner and for
unborn and partially born individuals under sentence of death.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

Mr. Scott P. Roeder #65192
Hutchinson Correctional Facility
P.O. Box 1568
Hutchinson, KS 67504-1568
Pro Se and as Next Friend
Date:

;;-£0
28

, 2020.

